NO. 20-915

In the
Supreme Court of the United States
UNICOLORS, INC.,

Petitioner,
v.
H&M HENNES & MAURITZ, L.P.,

Respondent.
__________________________

On a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
BRIEF OF AMICI CURIAE
AMERICAN SOCIETY OF MEDIA PHOTOGRAPHERS, INC.
AND CALIFORNIA SOCIETY OF ENTERTAINMENT
LAWYERS JOINED BY TWELVE CREATOR RIGHTS
ORGANIZATIONS, IN SUPPORT OF PETITIONER

DARREN J. QUINN
LAW OFFICES OF
DARREN J. QUINN
12702 VIA CORTINA, SUITE 105
DEL MAR, CA 92014
(858) 509-9401
DQ@DQLAW.COM
STEVEN T. LOWE
CALIFORNIA SOCIETY OF
ENTERTAINMENT LAWYERS
8383 WILSHIRE BLVD., SUITE 1038
BEVERLY HILLS, CA 90211
(310) 477-5811
STEVEN@LOWELAW.COM

THOMAS B. MADDREY

COUNSEL OF RECORD

AMERICAN SOCIETY OF
MEDIA PHOTOGRAPHERS, INC.
FOUR EMBARCADERO CENTER
SUITE 1400
SAN FRANCISCO, CA 94111

(214) 701-1875
MADDREY@ASMP.ORG

COUNSEL FOR AMICI CURIAE

AUGUST 10, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF THE AMICI CURIAE ....................... 1
SUMMARY OF ARGUMENT .................................... 6
ARGUMENT ............................................................. 10
I.

COPYRIGHT REGISTRATION IS DESIGNED TO
BE ACCOMPLISHED BY CREATORS WITHOUT
LEGAL ASSISTANCE, YET THE PROCESS IS
RIFE WITH THE POSSIBILITY OF INADVERTENT ERROR..................................................... 10
A. The Questions Posed in the Copyright
Registration Application Require
Complex Legal Analysis and Legal Conclusions That Vex Even Experienced
Copyright Practitioners.............................. 12
B. Under the Ninth Circuit’s Reasoning,
the Penalty for Making a Good-Faith
Error in Your Legal Conclusion Can
Result in Invalidation of Your Copyright
and Its Attendant Protections, a Result
That Awards Infringers and Punishes
Those Who Were Infringed. ...................... 17
C. Small and Individual Creators Are Disproportionally Reliant on Statutory
Damage Awards That Are Most Easily
Lost When Error Occurs. ........................... 21

II. SECTION 411(b) IS CLEAR: TO CONSTITUTE
FRAUD ON THE COPYRIGHT OFFICE, INACCURATE INFORMATION MUST BE KNOWN TO
BE INACCURATE. .............................................. 23

ii
TABLE OF CONTENTS – Continued
Page
A. A “Knowing Inaccuracy” in a Registration Should Only Be Penalized Based
on a Series of Affirmative Choices on
the Part of the Copyright Owner. ............ 25
III. FOR INDIVIDUAL AND SMALL CREATORS, THE
PROTECTIONS GRANTED BY COPYRIGHT L AW
ARE VITAL TO ENSURING THEIR CREATIVE
CONTRIBUTIONS TO SOCIETY. .......................... 26
CONCLUSION.......................................................... 31

iii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Advisers, Inc. v. Wiesen-Hart, Inc.,

238 F.2d 706 (6th Cir. 1956) ............................. 24

Billy-Bob Teeth, Inc. v. Novelty, Inc.,

329 F.3d 586 (7th Cir. 2003) ........................... 24

Bouchat v. Baltimore Ravens, Inc.,

241 F.3d 350 (4th Cir. 2001) ........................... 23

Bouve v. Twentieth Century-Fox Film Corp.,

122 F.2d 51 (D.C. Cir. 1941) ............................. 24

Fogerty v. Fantasy, Inc.,

510 U.S. 517 (1994) ............................................. 20

Fonar Corp. v. Domenick,

105 F.3d 99 (2d Cir. 1997) ................................. 23

Fourth Estate Pub. Benefit Corp. v. WallStreet.com, LLC, 139 S. Ct. 881 (2019) ............. 10
Gallup, Inc. v. Kenexa Corp.,

149 F. App’x 94 (3d Cir. 2005) .......................... 23

Gold Value Int’l Textile v. Sanctuary Clothing,

925 F. 3d 1140 (9th Cir. 2019) ............... 18, 19, 20

Kirtsaeng v. John Wiley & Sons, Inc.,

136 S. Ct. 1979 (2013) ....................................... 21

Montz v. Pilgrim Films & TV, Inc.,

649 F.3d 975 (9th Cir. 2011) ............................ 1

One Treasure Ltd., Inc. v. Richardson,

202 F. App’x 658 (5th Cir. 2006) ....................... 24

Roberts v. Gordy,

877 F.3d 1024 (11th Cir. 2017) ....................... 24

iv
TABLE OF AUTHORITIES – Continued
Page

Torres-Negron v. J & N Records, LLC,

504 F.3d 151 (1st Cir. 2007) .............................. 23

STATUTES
17 U.S.C. § 101 .................................................... 14, 15
17 U.S.C. § 102(a) ..................................................... 10
17 U.S.C. § 411(b) ........................................... 6, 23, 25
17 U.S.C. § 412 .......................................................... 22
17 U.S.C. § 412(2) ..................................................... 22
17 U.S.C. § 504 .......................................................... 22
17 U.S.C. § 504(c)(1)-(2) ............................................ 21
17 U.S.C. § 505 .......................................................... 22
Pub. L. No. 110-403, 122 Stat. 4256 (2008), The
Prioritizing Resources and Organization
for Intellectual Property Act (“Pro IP Act”)
(2008) ................................................................... 6
JUDICIAL RULES
Sup. Ct. R. 37.6 ........................................................... 1

v
TABLE OF AUTHORITIES – Continued
Page
OTHER AUTHORITIES
American Intellectual Property Law
Association, 2019 Report of the Economic
Survey (2019).................................................... 18
Bureau of Labor Statistics, U.S. Department
of Labor, Occupational Outlook
Handbook, Photographers, at https://
www.bls.gov/ooh/media-andcommunication/photographers.htm .................. 18
Coalition of Visual Artists,

Comments in Response to U.S. Copyright
Office NOI Re Online Publication, 84 Fed.

Reg. 66328 (Dec. 4, 2019) .................................. 15

Deborah R. Gerhardt,

Copyright Publication on the Internet,

60 IDEA 1 (2020) ............................................... 14

Dustin Stout,

Social Media Statistics 2021: Top
Networks By the Numbers, https://

dustinstout.com/social-media-statistics/ .......... 29

eMarketer,

Global Instagram Users 2020, https://

www.emarketer.com/content/globalinstagram-users-2020 ....................................... 29
Graphics Artist Guild,
GRAPHIC ARTISTS GUILD HANDBOOK:
PRICING & ETHICAL GUIDELINES ......................... 5
Melville B. Nimmer,

Copyright Publication,

56 COLUM. L. REV. 185 (1956) ............................ 16

vi
TABLE OF AUTHORITIES – Continued
Page
Statista,

Number of Monthly Active Facebook
Users Worldwide as of 2nd Quarter 2021,

https://www.statista.com/statistics/
264810/number-of-monthly-activefacebook-users-worldwide/ ................................ 29

Stephen E. Siwek,

Copyright Industries in the U.S.
Economy: The 2018 Report (2018),

available at https://iipa.org/files/uploads/
2018/12/2018CpyrtRptFull.pdf ......................... 27

Thomas F. Cotter,

Toward A Functional Definition of
Publication in Copyright Law,

92 MINN. L. REV. 1724 (2008) ............................ 17

U.S. Copyright Office,

Register Your Work: Registration Portal,

https://copyright.gov/registration/ .............. 10, 13

1

INTEREST OF THE AMICI CURIAE1
AMERICAN SOCIETY OF MEDIA PHOTOGRAPHERS, INC.
(ASMP) is a 501(c)(6) non-profit trade association
representing thousands of members who create and
own substantial numbers of copyrighted photographs.
These members all envision, design, produce, and
sell their photography in the commercial market to
entities as varied as multinational corporations to
local mom and pop stores, and every group in between.
In its seventy-six-year history, ASMP has been committed to protecting the rights of photographers and
promoting the craft of photography.1
CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS
(CSEL) is an organization consisting of California
attorneys who seek to protect and defend the rights
of creative professional in the entertainment industry.
CSEL strives to provide support to screenwriters,
authors, and other creative professionals who are at
risk of having their rights egregiously stripped away.
CSEL is committed to advocating on behalf of creators,
whose claims are so often not sufficiently funded, in
a “dog eat dog” industry. Montz v. Pilgrim Films &
TV, Inc., 649 F.3d 975, 981 (9th Cir. 2011) (citing
Woody Allen, CRIMES AND MISDEMEANORS (Orion
1 In accordance with this Court’s Rule 37.6, counsel for amici
curiae certify that this brief was not authored in whole or in

part by counsel for any party and that no person or entity other
than amici curiae, their members, or their counsel have made a
monetary contribution intended to fund the preparation or
submission of this brief. All parties have consented to the filing
of this brief by blanket consent.

2
Pictures 1989)) (“It’s worse than dog eat dog. It’s dogdoesn’t-return-other-dog’s-phone-calls.”).
AMERICAN PHOTGRAPHIC ARTISTS (APA) is a notfor-profit trade association of professional photographers and copyright owners. APA members have a
strong interest in the issues presented by this case
because their businesses and livelihoods depend upon
the broadly defined subject matter that is protected
under the Copyright Act.
A RTISTS RIGHTS S OCIETY (ARS) is the largest
U.S. visual rights society and Copyright Management
Organization (CMO), licensing the copyrights of more
than 80,000 artist members worldwide. Its rolls are
comprised of painters, sculptors, illustrators, and
architects. While ARS’ membership includes both
commercial and fine artists and their heirs, the
majority of its members are fine artists who create
paintings, drawings, limited edition prints and sculpture for a market consisting initially of collectors.
However, all artists retain ownership of the copyrights
in their works and receive ongoing income from the
right of reproduction. ARS licenses such reproduction
on their behalf and monitors publications and other
media for unauthorized copying. When unauthorized
use is discovered, ARS assists its members in enforcement of their rights. Since registration is a formality
affecting copyright enforcement, any improvements
that can be made to make registration simpler and
less expensive are of vital interest both to ARS and
its members.
A MERICAN S OCIETY FOR C OLLECTIVE R IGHTS
LICENSING (ASCRL) is a 501(c)(6) not-for-profit corporation founded in the United States to collect and
distribute collective rights revenue for photography

3
and illustration to United States authors and rights
holders and to foreign national authors and rights
holders whose works are published in the United
States. ASCRL, represents over 16,000 illustrators and
photographers, and is the leading collective rights
organization in the United States for this constituency
of rights owners. ASCRL is a zealous defender of the
primary rights of illustrators and photographers, and
ASCRL actively engages in policy and legislative
initiatives that advance their interests.
ASSOCIATION OF MEDICAL ILLUSTRATORS (AMI),
established in 1945, is an international trade association for biomedical illustrators and animators.
Their members are highly specialized visual artists that
apply their creativity and scientific expertise to
advance life sciences, medicine, and healthcare. The
AMI engages in education and advocacy to support
all creators of intellectual property to own, control and
preserve their rights as guaranteed by national and
international copyright laws and conventions.
CENTER FOR ART LAW, established in 2009, is a
Brooklyn-based 501(c)(3) nonprofit organization that
offers educational resources and programming for the
advancement of a vibrant arts and law community. A
world-renowned asset to the art law field, the Center is
the only independent entity dedicated to writing,
gathering, and sharing art law news, information, and
legal analysis for the benefit of artists, attorneys,
students, scholars, art market professionals and
members of the general public. Through programming,
its website, its newsletter, and a robust internship
program, the Center engages in education and, through
its Visual Artists’ Legal Clinics, provides assistance
to underrepresented parts of the artistic community.

4
DIGITAL JUSTICE FOUNDATION (DJF) is a non-profit
legal organization dedicated to protecting individual
rights in digital spaces, with a particular focus on being
a voice for underrepresented individual users and
consumers. As part of this mission, the DJF advocates
for individual rights, including civil liberties, privacy
rights, and intellectual property rights, especially
where such rights are implicated by the internet and
other digital technologies.
D IGITAL M EDIA L ICENSING A SSOCIATION , I NC.
(DMLA) (formerly known as the Picture Archive
Council of America, Inc.) is a not-for-profit trade
association that represents the interests of entities
who license still and motion images to editorial and
commercial users. Founded in 1951, DMLA’s membership currently includes over 100 image libraries worldwide that are engaged in licensing millions of images,
illustrations, film clips, and other content on behalf
of thousands of individual creators. Members include
large general libraries, as well as smaller specialty
libraries, all of which support and provide livelihoods
to individual visual artists. Over the years, DMLA
has developed licensing standards, promoted ethical
business practices, and actively advocated for copyright
protection on behalf of its members. In addition,
DMLA educates and informs its members on issues
including technology, tools, and changes in the
marketplace.
GRAPHIC ARTISTS GUILD, INC. (GAG) is a 501(c)(6)
non-profit trade association which has advocated on
behalf of graphic designers, illustrators, animators,
cartoonists, comic artists, web designers, and production
artists for fifty years. GAG educates graphic artists
on best practices through webinars, Guild e-news,

5
resource articles, and meetups. The GRAPHIC ARTISTS
GUILD HANDBOOK: PRICING & ETHICAL GUIDELINES has
raised industry standards and provides graphic artists
and their clients guidance on best practices and
pricing standards.
NATIONAL PRESS PHOTOGRAPHERS ASSOCIATION
(NPPA) is a 501(c)(6) non-profit organization dedicated
to the advancement of visual journalism in its creation,
editing, and distribution. NPPA’s members include
video and still photographers, editors, students, and
representatives of businesses that serve the visual
journalism community. Since its founding in 1946,
the NPPA has been the Voice of Visual Journalists,
vigorously promoting the constitutional and intellectual
property rights of journalists as well as freedom of
the press in all its forms, especially as it relates to
visual journalism.
N ORTH AMERICAN N ATURE P HOTOGRAPHERS
ASSOCIATION (NANPA) is a 501(c)(6) non-profit organization founded in 1994. NANPA promotes responsible
nature photography as an artistic medium for the
documentation, celebration, and protection of our
natural world. NANPA is a critical advocate for the
rights of nature photographers on a wide range of
issues, from intellectual property to public land access.
PROFESSIONAL PHOTOGRAPHERS OF AMERICA (PPA),
the world’s largest photographic trade association,
represents over 31,000 photographers and photographic artists from dozens of specialty areas including
portrait, wedding, commercial, advertising, and art.
The professional photographers represented by the
PPA have been the primary caretakers of world
events and family histories for the last 150 years and
have shared their creative works with the public

6
secure in the knowledge that their rights in those
works would be protected.
TEXAS ACCOUNTANTS AND LAWYERS FOR THE ARTS
(TALA) is a nonprofit organization which provides
Texas artists and arts organizations with pro-bono legal
and accounting assistance and educational programming. Formed in 1979, TALA believes that individuals,
regardless of income, should have access to business
knowledge and advice to further a career in the creative
industries.

SUMMARY OF ARGUMENT
The creative fabric of society is woven by the
photographers, illustrators, graphic designers, 2-D and
3-D artists, and so many others whose livelihoods
depend on the protections afforded them by the Constitution and the Copyright Act. Slightly more than a
decade ago, Congress passed the Prioritizing Resources
and Organization for Intellectual Property Act of
2008 (“Pro IP Act”), to enhance the ability of copyright
creators to enforce their copyright and to codify the
doctrine of fraud on the United States Copyright
Office (“USCO”) in the registration process. Pub. L.
No. 110-403, 122 Stat. 4256 (2008). Title I of the Act
amends federal copyright law to “ . . . provide a safe
harbor for copyright registrations that contain inaccurate information” unless that information was provided “with knowledge that it was inaccurate”. Id.
§ 101(b)(1). As result, 17 U.S.C. § 411(b) was amended
to reflect this clarification.

7
The question presented in this matter, “whether
t[he] ‘knowledge’ element precludes a challenge to a
registration where the inaccuracy resulted from the
applicant’s good-faith misunderstanding of a principle
of copyright law” is of critical importance to the
hundreds of thousands of individual and small creators
who rely, in large measure, on copyright law to provide
protection for their livelihoods. Pet.Br.i.2
For these artists and authors, navigating the
complex legal process for registration of their copyrights
is daunting. Photographers, illustrators, designers,
2-D and 3-D artists, and all other manner of individual
copyright owners occasionally will, despite their best
efforts, submit a good-faith registration with an error
unknown to them, often based on a point of law which
itself is subject to continually shifting jurisprudence
and academic opinion.
Copyright registration, unlike other forms of
intellectual property recordation, was designed to be
accessible to all creators, without assistance from an
attorney. The current “Electronic Copyright Office”
at the website of the USCO allows individuals to
follow an online, multi-step registration process, tested
and designed to be as easy to use as possible. But while
the process may seem straightforward, the questions
asked, and the attendant answers submitted, require
a detailed understanding of terms of art, legal precedent, and application of the law to the facts of the
applicants work.
No question more aptly illustrates this untenable
balance than that of “publication” status. As organi2 References to the Petitioner’s Brief are designated by “Pet.Br.”.

8
zations who work with small creators, one of the
most asked questions of amici by its members is “has
my work been published?”. The answer to this fiveword query can divide and vex experienced copyright
practitioners as well as the most qualified copyright
scholars. To strip an author of her protection based on a
good-faith error regarding publication status, especially
when that error confers no additional benefit to the
applicant, strikes at the heart of the purpose of
copyright law.
This is not simply supported by common-sense
and principles of equity. The Copyright Act of 1976
and its subsequent amendments such as the Pro IP
Act evince clear congressional intent to reduce and
remove many of the burdensome formalities found in
previous copyright statutes. Time and time again, we
find Congress adopting a more expansive approach to
providing copyright protection to all authors.

Amici represent and work with tens of thousands

of small creators across the country. This group of
authors face unique and specific burdens in their
careers and in adhering to (and working with) the
copyright registration process. Many of these creators
feel intimidated, concerned with making mistakes,
and feeling that registration of their works is beyond
their grasp. To then introduce draconian penalties
against them for good-faith errors, resulting, as in
this case, with their infringers receiving a windfall,
only cripples the intent and the purpose of our
copyright system.
These individual authors and artists are the
engine that power creative output of the nation. It is
critical that both the text and the spirit of the law

9
are honored by reversing the opinion rendered by the
Ninth Circuit below.

10

ARGUMENT
I.

COPYRIGHT REGISTRATION IS DESIGNED TO BE
ACCOMPLISHED BY CREATORS WITHOUT LEGAL
ASSISTANCE, YET THE PROCESS IS RIFE WITH THE
POSSIBILITY OF INADVERTENT ERROR.

Under U.S. law, copyright protection attaches to
an original work of authorship at the time of its
creation when it is fixed in a tangible medium, such
as when a photographer presses the shutter and the
image is now recorded on the memory card or lightsensitive film. 17 U.S.C. § 102(a). While the work is
now protected from others invading the set of exclusive
rights guaranteed to the copyright owner, judicial
remedies remain subject to an additional, subsequent
action – registration. As this Court recently held, a
copyright owner must “apply for registration and
receive the Copyright Office’s decision on her application before instituting suit.” Fourth Estate Pub.
Benefit Corp. v. Wall-Street.com, LLC, 139 S. Ct. 881,
891 (2019). Therefore, to judicially enforce the protections granted at creation, registration becomes a
critical secondary step for copyright owners.
The U.S. Copyright Office (“USCO”) has set out
a path and method for registration of copyright, and,
in recent years, has encouraged or required applications
to be submitted electronically through the USCO’s
website.3 This registration process has been designed
to be as “user-friendly” as possible and is under regular
3 See Generally, U.S. Copyright Office, Register Your Work:
Registration Portal, https://copyright.gov/registration/.

11
revision to ensure that the process is accessible to the
public. Inherent in that mission is the idea that
copyright registration is something that can be
accomplished by the registrant themselves, without
the need for an attorney and its attendant costs.
Unlike other forms of registration of intellectual
property, the USCO is focused on ensuring that the
process is straightforward even for those without
legal expertise.
Despite this, however, the copyright registrant
is required to answer questions about the specific
work being registered – questions that in some cases
require a legal conclusion. In the instant case, Unicolors
designer Hanna Lim created an artwork for a fabric
design, and subsequently Unicolors included that
artwork as part of a copyright registration. That
registration was approved and duly registered by the
USCO. The artwork was then allegedly infringed by
H&M. It was only after a jury trial, a verdict that
found H&M’s used a “willful infringement” of the
original work by Unicolors, and an award of a substantial monetary judgment to Unicolors, that H&M
raised the prospect of an invalid copyright registration.
Pet.Br.4.
Why did H&M allege an invalid registration?
Because, they argue, Unicolors included other unpublished works on the same registration application that
resulted in “inaccurate information” being provided.
Pet.Br.13. Unicolors averred that it believed at every
point in the registration process that the application
and its information was both true and correct.
Pet.Br.15.
Despite this, the Ninth Circuit reversed the jury
verdict and remanded for further evaluation as to

12
the validity of the registration. It is not difficult to
see the dangers posed by this holding. The actions of
H&M, which a jury found to be not only infringement
but “willful” infringement, were subsumed by an
arguably inaccurate interpretation of adherence to a
technicality – one that did not even affect the work
at issue. In every sense of the word, the error alleged
was not “material”. The error did not concern the
work that was infringed.
Imagine the chill that the individual artist feels
when reading this set of facts. Imagine an illustrator
who creates a work based on years of creative
experience and innate talent, which she then presents
to her client, who could not be more impressed. In
keeping with her faith in copyright, she registers the
work, secure in the steps she has taken to protect her
art, her craft, and her business. Later she finds the
work stolen, copied line for line, and the infringer is
unrepentant. A trial commences wherein a jury agrees
with our illustrator – the work was infringed. They
even agree that the infringer was so blatant, so
egregious, that the infringement was “willful”. Only
then is she told that by checking the wrong box on
the application all those years ago, she is foreclosed
from any remedy. Imagine the chill.
A. The Questions Posed in the Copyright Registration Application Require Complex Legal
Analysis and Legal Conclusions That Vex
Even Experienced Copyright Practitioners.
A cursory examination of the various applications
for registration of copyright reveals a series of decisions

13
that require much of the applicant.4 From the very
first determination of which application to choose,
authors must ensure they correctly delineate between,
for example, when a piece of audio they have created
is a “sound recording” (requiring Form SR) or is part
of an “audiovisual work” (requiring Form PA). Visual
artists would use Form VA, unless they wish to
register a group of up to ten unpublished works, when
they would then use the new application for a Group
of Unpublished Works (“GRUW”). They would use
GRUW, that is, unless they are photographers, who,
if they wish to register a group of works, would be able
to register up to 750 images, published or unpublished,
using the individual applications for a Group of
Published Photographs (“GRPPH”) or a Group of
Unpublished Photographs (“GRUPH”) respectively.
Those choices are, quite literally, only the very first
step.
Creators must make other, equally critical, legal
conclusions in the following sections of the application.
For example, authors must correctly identify if the work
is a “work made for hire” as that term is defined by
statute. They must be savvy enough in legal nuance
to determine if their work is considered a “derivative
work” or possibly a “changed version” or even a “compilation”. Each of these terms of art have meanings
different than their colloquial counterparts. The creator
is now thrust into needing to know both the factual
background of the work they have made and the
legal definitions of the phrases they encounter. Then,
they must determine how the facts intersect with the
4 See U.S. Copyright Office, Register Your Work: Registration
Portal, https://copyright.gov/registration/.

14
legal terms and come to a conclusion on which box to
check.
Yet no single question may prove more complex
to individual creators than that of “publication” and
when a work is considered published. Section 101 of
the Copyright Act states:
“Publication” is the distribution of copies or
phonorecords of a work to the public by sale
or other transfer of ownership, or by rental,
lease, or lending. The offering to distribute
copies or phonorecords to a group of persons
for purposes of further distribution, public
performance, or public display, constitutes
publication. A public performance or display
of a work does not of itself constitute
publication.
17 U.S.C. § 101. (Emphasis Added).
This definition proves problematic not only on
its face, but also in its application in a digital world.
See Deborah R. Gerhardt, Copyright Publication on
the Internet, 60 IDEA 1, 2 (2020). As outlined by the
Coalition of Visual Artists (of which multiple undersigned amici are members) in their Comments in
Response to the U.S. Copyright Office Notice of
Inquiry Regarding Online Publication, visual artists
reading the definition above are faced with multiple,
immediate questions:
●

What is a “distribution”? Is that the same
as simply sending work? Does “distribution”
include posting online?

15
●

What is a “distribution”? Is that the same
as simply sending work? Does “distribution”
include posting online?

●

What are “copies”? Copies are further defined
in § 101 as “material objects”. Is a digital
photo or illustration a “material object”? Or
must a visual artist make a print of the
digital file?

●

Why is “copies” plural? If a visual artist sells
a single, original work like an original
painting or illustration, is that a publication?

●

What is a “sale” What is a “lease”? If a
visual artist licenses an image but doesn’t
“sell” it is that a publication?

●

What is an “offering to distribute”? When does
one make an “offer”?

●

What is a “group of persons”? Is this the
same thing as “public” or is it supposed to
have a different meaning?

Coalition of Visual Artists, Comments in Response to
U.S. Copyright Office NOI Re Online Publication, 84
Fed. Reg. 66328 (Dec. 4, 2019).

This partial list serves to illustrate just the tip of
the confounding “publication” iceberg. These questions,
and the many others that arise in the registration
process, require answers that depend on an in-depth
understanding of copyright law; law which is unsettled
and nebulous at best.
The USCO recently acknowledged continued confusion regarding the distinction between published and
unpublished works. 84 Fed. Reg. at 66328. Citing to

16
the comments of the Copyright Alliance in response
to an Office Notice of Inquiry Regarding Registration
Modernization, the Alliance described the question of
publication as “so complex and divergent from an
intuitive and colloquial understanding of the terms
that it serves as a barrier to registration.” Id. This
barrier is decidedly not what was envisioned by the
creation of the Copyright Act. The USCO itself has
acknowledged that, “[v]arious individuals and groups
have repeatedly expressed frustration to the Office
regarding difficulty in determining whether a work
has been published when completing copyright application forms.” Id.
Copyright legal scholar Melville Nimmer notes
that there is still the lack of a clear definition of what
publication means and how courts should interpret
it. Melville B. Nimmer, Copyright Publication, 56
COLUM. L. REV. 185, 187 (1956). Nimmer states publication usually occurs when “by consent of the copyright
owner the tangible copies are sold, leased, loaned,
given away, or otherwise made available to the general public.” Id. He further suggests there is ambiguity
within the meaning of publication that makes it
extremely difficult to determine how “comprehensive
and unrestricted” the disposition must be “in order to
constitute public disposition.” Id. He suggests that it
is difficult, for example, to determine whether a television network distributing prints of its films to
different stations that generally televise all network
programs constitutes distribution to the general public.

Id.

Although it is without question that there are
competing “statutory and case law definitions of [the
term] publication,” the Ninth Circuit metes out extreme

17
punishment on the copyright creator when a court
sides with an alleged infringer regarding whether a
work was “published.” Thomas F. Cotter, Toward A

Functional Definition of Publication in Copyright
Law, 92 MINN. L. REV. 1724, 1784 (2008). If the best

legal minds cannot come to a consensus on if a certain
work would be “published”, how can the courts, the
USCO, or any other body expect a photographer, an
artist, a graphic designer, or any one of the creative
individuals who are trying to complete this registration
form to make that determination? More importantly,
given this background, if they happen to make the
wrong choice, it is simply inequitable to then run
them out of court and deprive them of their rights for
a good-faith error.
B. Under the Ninth Circuit’s Reasoning, the
Penalty for Making a Good-Faith Error in
Your Legal Conclusion Can Result in Invalidation of Your Copyright and Its Attendant
Protections, a Result That Awards Infringers
and Punishes Those Who Were Infringed.

Crime should not pay. In this case, H&M was
found to be a willful infringer by a jury. Pet.Br.13.
Only after that verdict did H&M seek any avenue
they could find to obscure what the jury determined
after hearing all the evidence: the work that was protected by copyright was infringed. To the millions of
other creators who rely on the protections of U.S.
copyright law, the spectre of this happening to them
when they seek to enforce the protections granted to
their works is in itself a barrier to registration. Amici
regularly speak to creators who cite the perceived
futility of the process.

18
The chilling effect is especially pronounced when
examining the monetary barriers that impede an
individual creator when she seeks to enforce her
rights. According to the 2019 Report of the Economic
Survey published by the American Intellectual Property
Law Association, the average cost of copyright litigation
cases with damages of less than $1,000,000 is
$397,000.5 Contrast that with $41,280, the median
pay in 2020 of a professional photographer as reported
by the Bureau of Labor Statistics.6 When the
possibilities of checking the wrong box on a form can
result in owing almost ten years of your salary to
cover your legal costs in a single infringement matter,
one can begin to see why so many are intimidated by
the registration process.
These are not simply theoretical concerns. Recent
cases have shown the practical result of this type of
inadvertent error. In Gold Value International Textile
Inc. v. Sanctuary Clothing, LLC, the Ninth Circuit
upheld a District Court opinion that invalidated a
copyright registration based on alleged “inaccurate
information” regarding publication status. Gold Value
Int’l Textile v. Sanctuary Clothing, 925 F. 3d 1140
(9th Cir. 2019), cert. denied. In this case, the court
sided with the infringer that a work was “published”
and rejected the copyright creator’s good faith arguments that the work was “unpublished” which resulted
in the court: (1) invalidating the copyright registration
5 American Intellectual Property Law Association, 2019 Report

of the Economic Survey, at I-208 (2019).

6 Bureau of Labor Statistics, U.S. Department of Labor, Occupational Outlook Handbook, Photographers, at https://www.bls.
gov/ooh/media-and-communication/photographers.htm

19
for the work on the ground the work was “published”,
not “unpublished”; (2) dismissing the creator’s
infringement action based upon an error in the
copyright registration regarding “unpublished”; and,
(3) awarding over $120,000.00 to the infringer based
upon a copyright registration technicality. Gold Value,
925 F.3d at 1148.
Citing Gold Value, the USCO recently noted the
dire “consequences an applicant may face if it incorrectly indicates on an application for a copyright
registration that the work at issue is unpublished.”
84 Fed. Reg. at 66330. Thus, the end result is “gotcha”
allegations by infringers who argue published works
were unpublished (Unicolors ) or unpublished works
were published (Gold Value ).
Importantly, publication can happen only once.
The artist is put in an impossible position when they
are asked not only to draw a legal conclusion, but
also predict the future by knowing at the time of
registration what the future publication status of the
work will be if a court happens to disagree with the
creator’s determination.
In this case, Unicolors testified that they initially
published these 31 works to their showroom before
later reserving a selection for certain clients. Pet.Br.14.
Because publication occurs at a singular moment in
time, when the works were released to the showroom
as a group the publication status was established for
the purposes of registration. Yet those designs could,
and did, find life separate from their initial grouping.
The Ninth Circuit punished Unicolors by creating
and then imposing a “bundled / unbundled” framework
on the works at issue. The end result was a requirement
by the court that works that are joined together at

20
one point in time must remain so forever, something
neither supported by law nor opinion. Pet.Br.17. As a
result, the reasoned verdict of a jury was discarded
not because of error by the lower court during trial, but
because of the error of not being able to prognosticate
at the time of registration what the Ninth Circuit
would proclaim the facts to be years later.
This is not a speculative circumstance for the small
creator. It is a commonplace scenario to find a photographer or artist grouping a set of works together for
sale as a collection, only to then see them split the
works later in the lifecycle of the pieces and sell
them individually. The creative output generated by
an artist should not be subject to more or less protection from infringement by the occurrence of some unknown future event.
The devastating consequences of Unicolors and
Gold Value are, without question, contrary to the aims
of copyright law. The copyright owner, who brought
suit in accordance with the law to stop the act of
infringement, was rebuffed in their search for justice
by the Ninth Circuit, and in Gold Value even ordered
to pay the attorney’s fees of the infringer. What was the
egregious action warranting these punitive measures?
Making a good-faith error regarding publication status,
a topic we already know to be actively debated in the
most advanced legal scholarship and practice. To
indicate that creators are, and should be, terrified by
this result is not an overstatement.

This Court has recognized that the “well settled”
objective of copyright law is to “ultimately serve[] the
purpose of enriching the general public through access
to creative works.” Fogerty v. Fantasy, Inc., 510 U.S.
517, 527 (1994). As this Court held in Kirtsaeng v. John

21

Wiley & Sons, Inc., “The [copyright] statute achieves

that end by striking a balance between two subsidiary
aims: encouraging and rewarding authors’ creations
while also enabling others to build on that work.”
136 S. Ct. 1979, 1986 (2016).
No balance can be achieved when a creator,
making every effort to comply the with rules as set
forth, find themselves coming to a conclusion different
than that of a federal judge trained and expert at
legal analysis. If the end result is an invalidated
registration and your case being dismissed, that is a
concerning prospect. If you are then ordered to pay
the hundreds of thousands of dollars of the infringer’s
attorney’s fees in the course of attempting to protect
your rights, that is simply unconscionable. Crime
should not pay.
C. Small and Individual Creators Are Disproportionally Reliant on Statutory Damage Awards
That Are Most Easily Lost When Error Occurs.
The individual creator already faces significant
hurdles in protecting their works in world where
infringement is quickly becoming the norm, not the
exception. Given the shockingly high cost of federal
copyright litigation, Congress established a safeguard
to ensure that even small copyright owners could
have their day in court. Section 504 of the Copyright
Act offers a lifeline to creators by allowing the
copyright owner to forgo seeking the actual damages
of the infringement, but instead to elect a set of statutory damages between $750 and $30,000, with an
additional upper bound of $150,000 per work infringed
if the violation was found to be “willful”. 17 U.S.C.
§ 504(c)(1)-(2). This is only an option, however, if the

22
work was registered either prior to the infringement,
or registered “within three months after the first
publication of the work.” 17 U.S.C. § 412(2).
Equally important are the provisions of § 505
which allow full costs, including attorney’s fees, to be
awarded to the prevailing party at the court’s discretion.
17 U.S.C. § 505. Yet this too is predicated on compliance
with § 412 and its requirement of registration prior
to infringement or within three months of first
publication. If you fail to meet that bar, you are
neither eligible for statutory damages nor attorney’s
fees.
Many photographers, for example, first find
their work infringed by seeing it appear on a website
not controlled by them. This activity is infringing on
the exclusive protected rights to reproduce, distribute,
and display the images created. This infringement,
though, is often of minimal “actual” damages. Without
the possibility of statutory damages or an award of
costs and attorney’s fees, nearly every small infringement would go unacknowledged and unpunished based
on the straightforward economics of litigation. Section
504 and 505 allow small creators to have a voice and
a level playing field. Yet if the creator were to make
a good-faith error regarding the publication status of
her work, and, like here, the court interpreted the
circumstances differently than the author, she may
find herself summarily excluded from the benefits of
the law designed to prevent the exact type of theft
that occurred. Good-faith errors by applicants should
never result in the deprivation of rights based in the
Constitution and grounded in statute.

23
II.

SECTION 411(B) IS CLEAR: TO CONSTITUTE FRAUD ON
THE COPYRIGHT OFFICE, INACCURATE INFORMATION
MUST BE KNOWN TO BE INACCURATE.

The standard that § 411(b)(1)(A) applies is one
of “knowledge” of the inaccuracy. Simply put, a goodfaith error can never be considered fraud on the
copyright office as there was never any knowledge of
the error to begin with. There is nothing in the legislative history of the Pro IP Act that suggests that
§ 411(b) was intended to increase the ability of a
willful infringer to argue a copyright registration
should be invalidated due to an “inaccuracy.”
When examining the question of error, many
circuits have required materiality, intent to defraud,
or reliance by the infringer on the error to invalidate
a copyright registration. See, e.g., Torres-Negron v. J
& N Records, LLC, 504 F.3d 151, 162 (1st Cir. 2007)
(“[M]ost errors or mistakes in a copyright registration
application will be inadvertent or immaterial, and
thus will not invalidate the application.”); Fonar Corp.
v. Domenick, 105 F.3d 99, 106 (2d Cir. 1997) (“Absent
a showing that [plaintiff] defrauded or made a deliberate misrepresentation to the Copyright Office, we
think that a presumption of regularity and appropriateness in filing is ordinarily subsumed in the presumption of validity that attaches to a certificate of
copyright registration.”); Gallup, Inc. v. Kenexa Corp.,
149 F. App’x 94, 96 (3d Cir. 2005) (“[I]t is not clear
that even knowing misrepresentations can void a
copyright registration where the Register has not
relied on them.”); Bouchat v. Baltimore Ravens, Inc.,
241 F.3d 350, 357 (4th Cir. 2001) (“Accidental but
harmless mistakes in a copyright application do not

24
subsequently preclude an infringement action against
an alleged copier.”).
Still other cases have continued in support of
this seemingly well-settled assertion of law: One
Treasure Ltd., Inc. v. Richardson, 202 F. App’x 658,
660 (5th Cir. 2006) (“Courts have repeatedly excused
a wide range of errors, like those complained of by
the defendant including misidentification of copyright
claimant, misclassification of a work, misstatement
of work’s author, misstatement of a work’s creation
and publication dates, and misstatement that a work
is made for hire.”); Advisers, Inc. v. Wiesen-Hart, Inc.,
238 F.2d 706, 708 (6th Cir. 1956) (“It is our conclusion, nevertheless, that an innocent misstatement, or
a clerical error, in the affidavit and certificate of
registration, unaccompanied by fraud or intent to
extend the statutory period of copyright protection,
does not invalidate the copyright, nor is it thereby
rendered incapable of supporting an infringement
action.”); Billy-Bob Teeth, Inc. v. Novelty, Inc., 329
F.3d 586, 591 (7th Cir. 2003) (“[C]ase law is overwhelming that inadvertent mistakes on registration
certificates do not . . . bar infringement actions, unless
the alleged infringer has relied to its detriment on
the mistake, or the claimant intended to defraud the
Copyright Office by making the misstatement.”)
(citations omitted); Roberts v. Gordy, 877 F.3d 1024,
1029 (11th Cir. 2017) (“intentional or purposeful
concealment of relevant information is required to
invalidate a copyright registration.”); and Bouve v.
Twentieth Century-Fox Film Corp., 122 F.2d 51, 55
(D.C. Cir. 1941) (“nor shall any error in classification
invalidate or impair the copyright protection secured
under this title”).

25
Collectively these cases, along with the express
text of the Pro IP Act and § 411(b) have set the
framework for evaluating error made on a copyright
registration application.
A. A “Knowing Inaccuracy” in a Registration
Should Only Be Penalized Based on a Series
of Affirmative Choices on the Part of the
Copyright Owner.
In this case, the alleged “inaccurate information”
on the application was the categorization of the work
as a published “collection of works”. This determination
was based on the knowledge available to Unicolors at
the time of registration based on the then-current
Copyright Office Compendium II. Pet.Br.15. The determination that this was error worthy of remand
was made years later by the Ninth Circuit, citing to a
revised version of the Copyright Office Compendium
(Compendium III ) that was not in existence when
the registration was completed by Unicolors. Pet.Br.17.
To hold a registrant responsible for law and
regulation not even in existence at the time of
registration is obviously unjust. Yet, all small creators
would benefit if this Court were to clarify what an
“knowing inaccuracy” on a registration application
consisted of. Amici contend that a finding of a “knowing
inaccuracy” should have three components:
(1) The registrant must have knowledge of the
underlying facts; AND,
(2) The registrant must have knowledge of the
relevant law; AND,

26
(3) The registrant must have knowledge that
he is misapplying the law at the time of
registration.
This three-part evaluation would give honest
import to the “knowing inaccuracy” standard. If a
registrant were to know the facts, know the law, and
know they were misapplying the law, then that is
exactly the definition of “fraud on the copyright
office” and should be handled accordingly. That is a
knowing inaccuracy.
III. FOR INDIVIDUAL AND SMALL CREATORS, THE
P ROTECTIONS G RANTED BY C OPYRIGHT L AW
ARE VITAL TO ENSURING THEIR CREATIVE
CONTRIBUTIONS TO SOCIETY.
When copyright owners are denied registration
based on circumstances where there is “no indicia of
fraud or material error as to the work at issue,” it
creates a landscape in which those who would infringe
become the beneficiaries of unwarranted windfall.
This irreparably harms creators.
The creative community, including designers,
photographers, painters, writers, and many more
groups, act as an economic engine for the U.S.
economy. In 2018, the International Intellectual
Property Alliance studied the impact of “core copyright
industries”—i.e., businesses whose “primary purpose
is to create, produce, distribute, or exhibit copyright
materials”—on the economy, and determined that
they contributed more than $1.3 trillion to the GDP

27
of the United States.7 Such businesses are the engine
of innovation in the United States, and they rely on
the Copyright Act to protect their creations.
As part of the genesis of the Pro IP Act, Congress
expressly recognized that copyright creators have a
tremendous positive economic impact on our nation
and should be supported in creating new works and
in prosecuting copyright infringement. As Congresswoman Sheila Jackson Lee said during the legislative
session, “[t]he knowledge and innovation of American
citizens contributes significantly to the economic
strength of our nation. Intellectual property law provides the principal incentives that are calculated to
lead to the creation and production of new works.”
110 Cong. Rec. H3078 (daily ed. May 6, 2008) (statement of Rep. Lee).
Congressman Lamar Smith further stated:
Over the past 25 years, perhaps no group of
industries has been more responsible for the
sustained growth in our economy than those
who rely on strong patent, trademark, and
copyright protections. Today, our technology,
entertainment, and productivity-based enterprises stand as pillars of our economic and
export strength. They employ 18 million
Americans and account for 40 percent of our
economic growth.
110 Cong. Rec. H10238 (daily ed. Sept. 27, 2008)
(statement of Rep. Smith).
7 Stephen E. Siwek, Copyright Industries in the U.S. Economy:
The 2018 Report p.3 (2018), available at https://iipa.org/files/
uploads/2018/12/2018CpyrtRptFull.pdf.

28
It is amid this background that creators and
copyright owners now find their works to be even further at risk and devalued by the holdings of this and
other cases. Each hurdle, each barrier, erected
between creators and the limited protections of their
works offered by copyright serve to reduce the creative
output of the nation and undercut the historic purpose
of copyright.
The experience of medical illustrator Mica Duran
provides a window into the real-world implications of
rulings like that in Unicolors. Ms. Duran is a professional commercial illustrator who has, over the past
20 years registered hundreds of works. Her clients
are large multi-national corporations, all of whom
have legal departments. As she says, “Every decision
to enforce my rights is weighed against the
possibility of being held responsible for attorney fees,
which would bankrupt my family.” It is an untenable
position faced by graphic designers and illustrators
each day.
Photographers face a related set of challenges.
The rise of social media sites like Instagram and Facebook have connected the world in ways unimaginable
just a few years ago. Yet these sites also are designed
to facilitate “sharing” of media, often photography.
When a business uses an image in its advertising
on social media without permission, it is no longer
“sharing”, it is straightforward infringement. By its
nature, the digital image is tailor-made to propagate
through the internet at lightning speed. Photographers, like many artists, therefore, face a critical
decision each day: do I put my work out into the
world where potential client can view and appreciate
it while risking theft and infringement? Or do I hold

29
my creative output close, depriving society from its
benefits?
Frankly, for the working creative professional, it
is often a decision in name only: in 2020, the photobased social media site Instagram marked 1 billion
monthly users.8 Yet that pales in comparison with
Instagram’s corporate owner, Facebook, who in 2019
touted 2.89 billion monthly active users.9 These
users upload over 300 million photographs every
day.10 To avoid posting your work to social media
over the very real threat of infringement is not a
business proposition that makes sense when doing so
would eschew 20% of the world’s population.
Artists, writers, musicians, choreographers, and
myriad other creators wake each morning and face
the same dilemmas of photographers, graphic
designers, and illustrators. For far too many of these
authors, copyright feels like a protection they are not
“important” enough to receive. Yet the Copyright Act
is not designed to protect only the largest producers,
it is also designed to protect the smallest. Decisions
such as the one in Unicolors serve to erode the core
protections that allow society to benefit from creation.

8 eMarketer, Global Instagram Users 2020, https://www.emarketer.
com/content/global-instagram-users-2020
9 Statista,

Number of Monthly Active Facebook Users
Worldwide as of 2nd Quarter 2021, https://www.statista.com/

statistics/264810/number-of-monthly-active-facebook-usersworldwide/.

10 Dustin Stout, Social Media Statistics 2021: Top Networks By
the Numbers, https://dustinstout.com/social-media-statistics/.

30
Unfortunately, this erosion is often silent; it is the
story unwritten, the photograph not captured, the
canvas bereft of paint. What we lose is greater than
we can imagine. It is the potential of creation blunted
and a world left poorer without any of us being able
to quantify exactly why. If only we could allow
creators to create, secure in the knowledge that their
best efforts matter and their good-faith is enough.
They deserve that from each of us and from this
Court.

31

CONCLUSION
For the reasons set forth above, amici join the
Petitioner in respectfully requesting that the Court
reverse the Ninth Circuit’s opinion.
Respectfully submitted,
THOMAS B. MADDREY

COUNSEL OF RECORD

AMERICAN SOCIETY OF
MEDIA PHOTOGRAPHERS, INC.
FOUR EMBARCADERO CENTER, SUITE 1400
SAN FRANCISCO, CA 94111
(214) 701-1875
MADDREY@ASMP.ORG
DARREN J. QUINN
LAW OFFICES OF DARREN J. QUINN
12702 VIA CORTINA, SUITE 105
DEL MAR, CA 92014
(858) 509-9401
DQ@DQLAW.COM
STEVEN T. LOWE
CALIFORNIA SOCIETY OF
ENTERTAINMENT LAWYERS
8383 WILSHIRE BLVD., SUITE 1038
BEVERLY HILLS, CA 90211
(310) 477-5811
STEVEN@LOWELAW.COM

COUNSEL FOR AMICI CURIAE
AUGUST 10, 2021

